No. 20In the

Supreme Court of the United States
DAWN HERNDON,
Petitioner,
v.
JODY R. UPTON, WARDEN, FMC CARSWELL,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of A ppeals for the Fifth Circuit

PETITION FOR A WRIT OF CERTIORARI
Virginia Chavez Romano
Steven A. Levy
Tripp Odom
A lice Hong
Naari Ha
White & Case LLP
1221 Avenue of the Americas
New York, New York 10020
(212) 819-8200

Kenneth A. Caruso
Counsel of Record
Mukasey Frenchman LLP
Two Grand Central Tower
140 East 45th Street
New York, New York 10017
(212) 466-6400
kenneth.caruso@mfsllp.com

Counsel for Petitioner
304299

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
A defendant in a federal criminal case receives a
paradigmatic sentence -- a term of imprisonment, to be
followed by a term of supervised release. While in prison,
she files a petition for a writ of habeas corpus, alleging that
the Bureau of Prisons miscalculated her prison-release
date, and will therefore over-incarcerate her. Before
the court adjudicates that case, however, she completes
her term of imprisonment and commences her term of
supervised release.
Is her habeas case moot, even though the sentencing
court can terminate or reduce her term of supervised
release, and the over-incarceration, established in
the habeas case, would constitute an “equitable
consideration[] of great weight[]” in the sentencing
court? Johnson v. United States, 529 U.S. 53, 60 (2000).

ii
LIST OF ALL PROCEEDINGS DIRECTLY
RELATED TO THIS CASE
• Herndon v. Upton, No. 19-11156, U.S. Court of
Appeals for the Fifth Circuit. Judgment entered
Jan. 13, 2021.
• Herndon v. Upton, No. 18-cv-120, U.S. District
Court for the Northern District of Texas.
Judgment entered Sept. 25, 2019.
• United States v. Herndon, No. 17-12373, U.S. Court
of Appeals for the Eleventh Circuit. Judgment
entered Aug. 10, 2018.
• Herndon v. United States, No. 17-12597, U.S.
Court of Appeals for the Eleventh Circuit. Order
Denying Motion for Certificate of Appealability
entered Sept. 20, 2017; Order Denying Motion for
Reconsideration entered Nov. 3, 2017.
• Herndon v. United States, No. 17-cv-80501, U.S.
District Court for the Southern District of Florida.
Report and Recommendation entered May 1, 2017;
Order Adopting Report and Recommendation
entered May 24, 2017; Order Denying Motion for
Reconsideration entered Jun. 21, 2017.
• United States v Herndon, No. 12-cr-80172, U.S.
District Court for the Southern District of Florida.
Judgment entered Mar. 25, 2013.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
LIST OF ALL PROCEEDINGS DIRECTLY
RELATED TO THIS CASE . . . . . . . . . . . . . . . . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
OPINION BELOW  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTIONAL STATEMENT . . . . . . . . . . . . . . . . 1
STATUTORY PROVISIONS INVOLVED  . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 1
REASONS FOR GRANTING THE PETITION . . . . . 5
I.

The Circuits Conflict On The Question
Whether A Habeas Corpus Case Is Moot
Where (A) The Petition Alleges That The BOP
Will Over-Incarcerate The Petitioner, (B)
The BOP Later Releases The Petitioner To
Serve A Term Of Supervised Release And (C)
The Sentencing Court Can, In Light Of The
Over-Incarceration, Terminate Or Reduce
The Term Of Supervised Release  . . . . . . . . . . . . 9

iv
Table of Contents
Page
A. The Legal Background . . . . . . . . . . . . . . . . . 9
1.

The Paradig matic, T wo-Part
Federal Sentence  . . . . . . . . . . . . . . . . . . 9

2. United States v. Johnson -- And
Its Door, Open To Termination
Or To Reduction Of A Term Of
Supervised Release  . . . . . . . . . . . . . . . . 9
B. The Circuit Conflict Develops . . . . . . . . . . .12
1.

Seven Circuits Hold That A Case Is
Not Moot (Before The Fifth Circuit,
In This Case, Retreats From That
Holding)  . . . . . . . . . . . . . . . . . . . . . . . . . 12

2. Five Circuits, By Contrast, Hold
That A Case Is Moot . . . . . . . . . . . . . . . 16
C. The Fifth Circuit, In This Case,
Retreats To A Middle Ground  . . . . . . . . . . 19
D. The Circuit Conflict, As It Currently
Stands  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
II. The Circuit Conf lict Yields A Stark,
Nationwide Disparity In Access To A Federal
Habeas Forum, Which Adversely Affects Tens
Of Thousands Of Prisoners, Approximately
Half Of The Federal Prison Population  . . . . . . 22

v
Table of Contents
Page
III. The Court Should Review This Case, And
Should Reverse On The Merits, Because The
Fifth Circuit, And The Other Circuits That
Hold A Case Like This Moot, Mis-Applied
Relevant Decisions Of This Court . . . . . . . . . . . 25
A. This Case Is Not Moot . . . . . . . . . . . . . . . . . 25
B. The Fifth Circuit’s Decision In This
Case Conf licts With Decisions Of
This Court And Establishes Unsound
Public Policy . . . . . . . . . . . . . . . . . . . . . . . . . 26
1.

The Fifth Circuit’s Decision In This
Case Conflicts With This Court’s
Decisions In Chafin And Powell . . . . . 26

2. The Fifth Ci rcuit’s Decision
Est abl ishes Unsound P ubl ic
Policy . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
C. The Decisions Of Other Circuits,
Holding Cases Like This Moot, Conflict
With Decisions Of This Court  . . . . . . . . . . 28
1.

The Circuits In Question Rely On
Inapplicable Decisions Of This
Court . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

vi
Table of Contents
Page
2. The Circuits In Question Incorrectly
Ex a m i ne T he Discret iona r y
Nature Of The Relief, And The
Prospects Of Success, Which,
Under Chafin, Are Not Pertinent
To The Mootness Analysis. . . . . . . . . . 30
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

vii
TABLE OF APPENDICES
Page
Appendix A — opinion of the united
states court of appeals FOR THE
FIFTH CIRCUIT, FILED JANUARY 13, 2021  . . 1a
A ppendi x B — O P I N ION O F T H E
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
TEXAS, FORT WORTH DIVISION, DATED
SEPTEMBER 25, 2019 . . . . . . . . . . . . . . . . . . . . . . . 15a
Appendix C — RELEVANT STATUTORY
PROVISIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19a

viii
TABLE OF CITED AUTHORITIES
Page
Cases
Blakeney v. Huetter,
795 App’x 493 (8th Cir. 2020) . . . . . . . . . . . . . . . . . 18-19
Bonner v. City of Pritchard,
681 F.2d 1206 (11th Cir. 1981)  . . . . . . . . . . . . . . . . . . . 4
Bravo-Fernandez v. United States,
137 S. Ct. 352 (2016)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Burkey v. Marberry,
556 F.3d 142 (3d Cir. 2009) . . . . . . . . . . . . . . . . . passim
Chafin v. Chafin,
568 U.S. 165 (2013)  . . . . . . . . . . . . . . . . . . . . . . . passim
Chandler v. United States,
468 F.2d 834 (5th Cir. 1970) . . . . . . . . . . . . . . . . . . . . . 4
Dawson v. Scott,
50 F.3d 884 (11th Cir. 1995) . . . . . . . . . . . . . . . . . 14, 23
Demis v. Sniezek,
558 F.3d 508 (6th Cir. 2009) . . . . . . . . . . . . . . 18, 22, 29
Douthit v. Jones,
619 F.2d 527 (5th Cir. 1980) . . . . . . . . . . . . . . . . . . . . . 5
Francis v. Fiacco,
942 F.3d 126 (2d Cir. 2019) . . . . . . . . . . . . . . . . . . . . . . 5

ix
Cited Authorities
Page
Francis v. Maloney,
798 F.3d 33 (1st Cir. 2015)  . . . . . . . . . . . . . . . . . . 18, 23
Gunderson v. Hood,
268 F.3d 1149 (9th Cir. 2001) . . . . . . . . . . . . . 13, 27, 28
Halo Elecs., Inc. v. Pulse Elecs., Inc.,
136 S. Ct. 1923 (2016)  . . . . . . . . . . . . . . . . . . . . . . . 8, 32
Johnson v. Pettiford,
442 F.3d 917 (5th Cir. 2006) . . . . . . . . . . . . . . . . passim
Johnson v. United States,
529 U.S. 53 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 8
Kircher v. Putnam Funds Trust,
547 U.S. 633 (2006) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Knox v. SEIU, Local 1000,
567 U.S. 298 (2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
Kornegay v. Warden,
748 F. App’x 513 (4th Cir. 2019) . . . . . . . . . . . . . . . . . 16
Leiter v. Nickrenz,
697 App’x 470 (8th Cir. 2017) . . . . . . . . . . . . . . . . . . . 19
Levine v. Apker,
455 F.3d 71 (2d Cir. 2006) . . . . . . . . . . . . . . . . . . passim

x
Cited Authorities
Page
Mitchell v. Middlebrooks,
287 App’x 772 (11th Cir. 2008) . . . . . . . . . . . . . . . 14, 23
Mujahid v. Daniels,
413 F.3d 991 (9th Cir. 2005) . . . . . . . . . . . . . . . . passim
Palacio v. Sullivan,
814 F. App’x 774 (4th Cir. 2020) . . . . . . . . . . . . . . . . . 16
Pope v. Perdue,
889 F.3d 410 (7th Cir. 2018) . . . . . . . . . . . . . . . . passim
Powell v. McCormack,
395 U.S. 486 (1969) . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
Reynolds v. Thomas,
603 F.3d 1144 (9th Cir. 2010)  . . . . . . . . . . . . . . . . 16, 23
Rhodes v. Judiscak,
676 F.3d 931 (10th Cir. 2011)  . . . . . . . . . . . . . . . passim
Rosales-Mireles v. United States,
138 S. Ct. 1897 (2018) . . . . . . . . . . . . . . . . . . . . . . . . . 32
Spencer v. Kemna,
523 U.S. 1 (1998)  . . . . . . . . . . . . . . . . . . . . . 7, 28, 29, 30
Townes v. Jarvis,
577 F.3d 543 (4th Cir. 2009) . . . . . . . . . . . . . . . . . 22, 24

xi
Cited Authorities
Page
United States v. Epps,
707 F.3d 337 (D.C. Cir. 2013) . . . . . . . . . . . . . . . passim
United States v. Johnson,
529 U.S. 53 (2000) . . . . . . . . . . . . . . . . . . . . . . . . passim
United States v. Juvenile Male,
564 U.S. 932 (2011)  . . . . . . . . . . . . . . . . . . . . . . . passim
United States v. Ketter,
908 F.3d 61 (4th Cir. 2018) . . . . . . . . . . . . . . . . . . . . . 16
United States v. Welty,
426 F.2d 615 (3d Cir. 1970), abrogated on other
grounds by United States v. DiFrancesco,
449 U.S. 117 (1980)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Williams v. Wilson,
747 F. App’x 170 (4th Cir. 2019) . . . . . . . . . . . . . . 16, 24
Statutes and Other Authorities
U.S. Const., Art. III . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
18 U.S.C. § 3582(c)(2) . . . . . . . . . . . . . . . . . . . . . . . . . 15, 21
18 U.S.C. § 3583  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
18 U.S.C. § 3583(e) . . . . . . . . . . . . . . . . . . . . . . . . . . passim

xii
Cited Authorities
Page
18 U.S.C. § 3583(e)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
18 U.S.C. § 3583(e)(2) . . . . . . . . . . . . . . . . . . . . . . . . .  11, 13
18 U.S.C. § 3624(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
18 U.S.C. § 3624(b)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
18 U.S.C. § 3624(e) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1331  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
28 U.S.C. § 2241 . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
28 U.S.C. § 2255 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 16
Federal Bureau of Prisons, Population Statistics
(February 24, 2021)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Sup. Ct. R. 10(c)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
U.S. Sentencing Commission, Overview of Federal
Criminal Cases—Fiscal Year 2020 10 (April 2021) . . . . 9
United States Sentencing Commission, 2019 Federal
Sentencing Statistics (April 2020) . . . . . . . . . . . . . . . . . 28

1
Dawn Herndon respectfully submits this Petition for
a Writ of Certiorari to review the judgment of the United
States Court of Appeals for the Fifth Circuit.
OPINION BELOW
The opinion of the Court of Appeals is reported at 985
F.3d 443 (5th Cir. 2021); Appendix (“A”)-1a. The order of
the District Court for the Northern District of Texas is
unreported; A-15a.
JURISDICTIONAL STATEMENT
The Court of Appeals entered its judgment on January
13, 2021. This petition is timely in that this Court, on
March 19, 2020, ordered that “the deadline to file any
petition for a writ of certiorari due on or after the date
of this order is extended to 150 days from the date of the
lower court judgment[.]” This Court has jurisdiction under
28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
This case involves 28 U.S.C. § 2241 and 18 U.S.C.
§ 3583(e), which are set out in the Appendix at A-19a-30a.
STATEMENT OF THE CASE
Herndon was sentenced to 60 months in prison, to
be followed by a three-year term of supervised release.
The sentencing court ordered Herndon to surrender
to a designated Bureau of Prisons (“BOP”) facility one
year later, and to spend the intervening year in home
confinement, with electronic monitoring, so that she could

2
continue treatments for cancer. The court stated clearly
that the sentence “does give credit for the time she’s going
to spend in home confinement.”
Later, however, while in prison, Herndon learned
that the BOP had calculated her term of imprisonment,
and her release date, so as to deny her credit for the time
that she served in home confinement, and to extend her
term of imprisonment beyond the term imposed by the
sentencing court. Herndon commenced this habeas corpus
case in the district in which she was then confined, alleging
over-incarceration.
More than 17 months later, however, with no decision
by the district court, the BOP released Herndon, and she
began serving her three-year term of supervised release.
The court then dismissed Herndon’s case as moot. The
Fifth Circuit affirmed.
****
Herndon pleaded guilty in the United States District
Court for the Southern District of Florida (the “S.D. Fla.”)
to an Information charging her with five counts of bank
fraud. Herndon thereafter learned that she had colon
cancer. She underwent surgery, followed by eight months
of chemotherapy.
On March 25, 2013, Herndon appeared in the district
court for sentencing. The court imposed a sentence
of 60 months on each count, the sentence on each to
run concurrently, to be followed by a three-year term
of supervised release. The court ordered Herndon to
surrender to a designated BOP facility one year later,

3
and to spend the intervening year in home confinement,
with electronic monitoring, so that she could continue
her medical treatments. The court stated clearly that
the sentence “does give credit for the time she’s going to
spend in home confinement.”
Herndon then spent approximately two years in home
confinement, following court-ordered extensions of the
surrender date to allow continued medical treatments. On
April 6, 2015, Herndon entered a BOP facility.
While in prison, Herndon learned that the BOP had
calculated her term of imprisonment not from the date of
her sentencing and home confinement, March 25, 2013, but
from the date of her surrender to a BOP facility, April 6,
2015, in effect denying Herndon credit for the two-plus
years that she served in home confinement, and extending
her term of imprisonment beyond the term imposed by
the sentencing court. Herndon, pro se, challenged that
calculation in the sentencing court,1 which held that the
1. Specifically, Herndon made a motion in the S.D. Fla., the
sentencing court, to amend the Judgment of Conviction so as to
reflect the oral pronouncement of sentence, which, in the words
of the sentencing court, gave “credit for the time she’s going to
spend in home confinement.” The court denied that motion. A-2a3a. Herndon appealed but the Eleventh Circuit dismissed that
appeal on the ground that Herndon, while a pro se litigant in
prison, failed timely to file a notice of appeal. A-3a n.1.
Meanwhile, Herndon, still pro se, filed a motion in S.D. Fla.,
the sentencing court, under 28 U.S.C. § 2255. The court denied the
motion, holding, among other things, that the issue of credit for
time served in home confinement must be raised under 28 U.S.C.
§ 2241, in the district in which Herndon was in custody. A-3a.
The district court later denied reconsideration, stating, among
other things, “I confirm that I reduced the period of imprisonment

4
issue of credit for time served in home confinement must
be raised under 28 U.S.C. § 2241, in the district in which
Herndon was in custody. A-3a.
Accordingly, Herndon, represented by counsel,
commenced this habeas corpus case in the United States
District Court for the Northern District of Texas, the
district in which she was confined. Her petition invoked
federal-question jurisdiction under 28 U.S.C. § 1331, and
alleged that the BOP had denied credit for the time served
in home confinement. More specifically, her petition alleged
that she was confined past the release date mandated by
her statutory good-time credits (December 2017), see
18 U.S.C. § 3624(b)(1) (providing for good-time credits),
and that she would continue to be confined even after her
from the guidelines range to a lesser amount based on the period
of future house arrest.” A-3a. That statement, however, has no
issue-preclusive effect here because the district court and the
Eleventh Circuit both denied a certificate of appealability. A-3a
n.2. See Kircher v. Putnam Funds Trust, 547 U.S. 633, 647
(2006) (holding that “principles of collateral estoppel . . . strongly
militat[e] against giving an [unreviewable judgment] preclusive
effect”) (brackets in original; internal quotation marks omitted);
see generally Bravo-Fernandez v. United States, 137 S. Ct. 352,
358 (2016). Eleventh Circuit precedent, furthermore, had long
rejected that sort of judicial statement, seeking “to conform[]” a
sentence to the supposed “original intention of the trial judge[,]”
pronounced in retrospect and “contrary to the meaning of the
words used[]” when the judge actually imposed the sentence at
issue. Chandler v. United States, 468 F.2d 834, 836 (5th Cir. 1970)
(quoting United States v. Welty, 426 F.2d 615, 618 (3d Cir. 1970)),
abrogated on other grounds by United States v. DiFrancesco, 449
U.S. 117 (1980); see Bonner v. City of Pritchard, 681 F.2d 1206,
1207 (11th Cir. 1981) (holding that Fifth Circuit decisions “shall
be binding as precedent in the Eleventh Circuit[]”).

5
five-year sentence expired (on March 24, 2018, five years
from the date of her sentencing and home confinement), in
violation of 18 U.S.C. § 3624(a) and the Due Process Clause
of the Fifth Amendment to the Constitution. 2 A-3a-4a.
More than 17 months later, on July 19, 2019, with
no adjudication by the district court, the BOP released
Herndon and she began serving her three-year term of
supervised release. A-4a. The district court then, sua
sponte, dismissed Herndon’s case as moot. A-15a. The
Fifth Circuit later affirmed. A-1a.
REASONS FOR GRANTING THE PETITION
This case presents the following circumstances,
which, as shown below, recur regularly in federal habeas
corpus cases: A federal prisoner files a petition for a
writ of habeas corpus, under 28 U.S.C. § 2241, alleging
that the BOP miscalculated her prison-release date, and
will therefore over-incarcerate her. Before the court
adjudicates that case, however, the prisoner completes
her term of imprisonment and commences her term of
supervised release.
In those recurring circumstances, the following
question recurs: Is the habeas case moot, even though the
sentencing court can terminate or reduce the petitioner’s
2. See, e.g., Francis v. Fiacco, 942 F.3d 126, 142 (2d Cir.
2019) (“[A]n inmate has a liberty interest in being released upon
the expiration of his maximum term of imprisonment.”) (internal
quotation marks omitted); Douthit v. Jones, 619 F.2d 527, 532 (5th
Cir. 1980) (“Detention of a prisoner . . . beyond the expiration of his
sentence in the absence of a facially valid court order or warrant
constitutes a deprivation of due process.”).

6
term of supervised release, and the over-incarceration,
established in the habeas case, would constitute an
“equitable consideration[] of great weight[]” in the
sentencing court? Johnson v. United States, 529 U.S. 53,
60 (2000).
The Court, for three main reasons, should grant this
Petition, and should hold that this case is not moot:
First, decisions of the Circuits on the question
presented here stand deeply conflicted, as shown below. On
one side, six Circuits answer the question in the negative;
the case is not moot. On the other side, five Circuits answer
the question in the affirmative; the case is moot. And in
the middle, one Circuit -- the Fifth Circuit, in this very
case -- holds that mootness depends on whether the BOP
housed the petitioner in a prison within the same judicial
district as the sentencing court; a case is therefore moot
where, as in this case, the BOP housed the petitioner in
the Northern District of Texas but she was sentenced in
the S.D. Fla.
The Circuit conflict is wide and deep, involving all
twelve of the Circuits that exercise jurisdiction in habeas
corpus cases. Further percolation, therefore, will not
resolve the conflict; only this Court can do so.
Second, the Circuit conflict impacts the lives of tens
of thousands of prisoners nationwide, in that the conflict
yields a stark disparity in access to a federal habeas
forum. Thus, approximately half of the federal prison
population has a federal habeas forum in a case like
this, while the other half of the population (or at least, a
percentage approaching the other half of the population)
does not.

7
Such disparity is intolerable -- or at least, it should
be intolerable. Federal law should not vary around the
country on a question as important and recurrent as that
presented here -- whether an over-incarcerated prisoner
has a federal habeas forum that can lead him or her to
a shorter term of supervised release. The Court should
grant this Petition, and should settle -- with a holding of
nationally-uniform application -- the question whether a
case like this one is moot.
Third, the Fifth Circuit in this case, and the other
Circuits that hold a case like this moot, mis-applied
relevant decisions of this Court. “[A] case becomes
moot only when it is impossible for a court to grant any
effectual relief whatever to the prevailing party.” Chafin v.
Chafin, 568 U.S. 165, 172 (2013). Here, however, it is by no
means “impossible” for a court to grant effectual relief to
Herndon. If she prevails, a court may terminate or reduce
her term of supervised release, thereby providing relief
available under 18 U.S.C. § 3583(e).
The Fifth Circuit held this case moot because the
habeas court has no “authority” to grant such relief
under section 3583(e); only the sentencing court has such
authority. That holding, however, “confuses mootness with
the merits[,]” in conflict with Chafin, 568 U.S. at 172, which
reversed precisely such a holding.
Other Circuits hold cases like this moot on the ground
that the petitioner must, but cannot, demonstrate the
existence of collateral consequences that rise to a morethan-speculative level. Those Circuits, however, rely on
inapplicable decisions of this Court -- Spencer v. Kemna,
523 U.S. 1 (1998), and United States v. Juvenile Male,

8
564 U.S. 932 (2011). Those cases apply only where the
petitioner has served his or her entire sentence and is
therefore not in custody at all. Those cases do not apply,
and the petitioner need not show collateral consequences,
where, as here, the petitioner remains in custody, serving
a term of supervised release.
Finally, the Circuits in question erred by examining
the supposed “speculative” or “discretionary” nature of
the available relief. Under Chafin, the habeas petitioner’s
“prospects of success are . . . not pertinent to the mootness
analysis.” 568 U.S. at 174.
A motion seeking the relief available here -- termination
or reduction of a term of supervised release under 18
U.S.C. § 3583(e) -- is a motion to the sentencing court’s
discretion. “[A] motion to a court’s discretion is a motion,
not to its inclination, but to its judgment; and its judgment
is to be guided by sound legal principles.” Halo Elecs., Inc.
v. Pulse Elecs., Inc., 136 S. Ct. 1923, 1931-32 (2016) (citation
omitted). Here, sound legal principles will obligate the
sentencing court to consider various factors, one of which
-- over-incarceration, established in the habeas case
-- would carry “great weight” in the sentencing court’s
discretionary balance. Johnson, 529 U.S. at 60. It is, in
sum, not “impossible for a court to grant [Herndon] any
effectual relief whatever[.]” Chafin, 568 U.S. at 172.

9
I.

The Circuits Conflict On The Question Whether A
Habeas Corpus Case Is Moot Where (A) The Petition
Alleges That The BOP Will Over-Incarcerate
The Petitioner, (B) The BOP Later Releases The
Petitioner To Serve A Term Of Supervised Release
And (C) The Sentencing Court Can, In Light Of
The Over-Incarceration, Terminate Or Reduce The
Term Of Supervised Release.
A.

The Legal Background
1.

The Paradigmatic, Two-Part Federal
Sentence

The paradigmatic federal sentence has, as relevant
here, two parts -- a term of imprisonment, followed by a
term of supervised release. Indeed, district courts around
the country impose such a two-part sentence in more than
85 percent of the cases that result in conviction, excluding
immigration cases. 3
2.

United States v. Johnson -- And Its Door,
Open To Termination Or To Reduction Of
A Term Of Supervised Release

The defendant in United States v. Johnson, 529 U.S.
53 (2000), received the paradigmatic sentence described
above; the district court convicted Johnson on five counts
3. U.S. Sentencing Commission, Overview of Federal
Criminal Cases—Fiscal Year 2020 10 (April 2021), https://
www.ussc.gov/sites/default/files/pdf/research-and-publications/
research-publications/2021/FY20_Overview_Federal_Criminal_
Cases.pdf (“Supervised release was imposed in 85.8 percent of all
cases not involving immigration.”).

10
involving narcotics and firearms offenses, and sentenced
him to a term of 111 months in prison, to be followed by a
three-year term of supervised release. Id. at 55.
Later, however, with Johnson in prison, “two of his
convictions were declared invalid. As a result, he had
served too much prison time and was at once set free,” id.
at 54, to begin service of his term of supervised release.
Johnson then filed a motion in the district court, asking
that court to reduce the term of supervised release
by “2.5 years, the extra time served on the vacated
. . . convictions.” Id. at 55. The district court denied the
motion but the Court of Appeals reversed, granting the
requested relief. Id.
On the Government’s appeal, this Court reversed.
The Court held that the prison term and the supervisedrelease term are “interrelated” but “not interchangeable.”
Id. at 58-59. Under the governing statute, 18 U.S.C.
§ 3624(e), the term of supervised release begins “on
the day the person is released,” not on the “earlier day
when he should have been released.” Id. at 57 (internal
quotation marks omitted). The lower courts therefore
lacked authority to credit, automatically, or day-for-day,
the service of the excess prison term to the service of the
term of supervised release.
The Court, however, left the door open for a court
to grant another form of relief to an over-incarcerated
defendant. Thus:
T here c a n be no doubt t hat equ it able
considerations of great weight exist when
an individual is incarcerated beyond the

11
expiration of his prison term. The statutory
structure provides a means to address these
concerns in large part. The trial court, as it
sees fit, may modify an individual’s conditions
of supervised release. 18 U.S.C. § 3583(e)(2).
Furthermore, the court may terminate an
individual’s supervised release obligations “at
any time after the expiration of one year . . . if
it is satisfied that such action is warranted by
the conduct of the defendant released and the
interest of justice.”
Id. at 60 (quoting 18 U.S.C. § 3583(e)(1)).
Post-Johnson cases, including this case, involve
prisoners -- released after over-incarceration, and serving
a term of supervised release -- who seek to walk through
the door left open in Johnson. The question arising
repeatedly in such cases, including this case, is whether
the prisoner’s release from prison moots his or her claim
of over-incarceration, even though he or she is serving
the supervised-release term of the sentence, and may,
therefore, as recognized in Johnson, win relief in the
sentencing court, which has discretion to terminate or
reduce that term based on the over-incarceration -- an
“equitable consideration[] of great weight[.]” Id. at 60.
As shown below, however, the decisions of the Circuits
conflict on that question.

12
B. The Circuit Conflict Develops
1.

Seven Circuits Hold That A Case Is Not
Moot (Before The Fifth Circuit, In This
Case, Retreats From That Holding)

Analysis begins with Mujahid v. Daniels, 413 F.3d
991 (9th Cir. 2005). In that case, the District Court for
the District of Alaska sentenced Mujahid to a term of ten
years in prison, to be followed by a term of three years of
supervised release. Id. at 993.
The BOP then imprisoned Mujahid in Oregon. Id.
While imprisoned, Mujahid filed, in the District Court
for the District of Oregon, a petition for a writ of habeas
corpus, under 28 U.S.C. § 2241, challenging the BOP’s
interpretation of the statute that governed the amount of
good-time credits available to a prisoner. Id.
The district court denied Mujahid’s petition on the
merits, and Mujahid appealed to the Ninth Circuit. Id.
With the appeal pending, however, the BOP released
Mujahid, and he began to serve his term of supervised
release. Id. at 994.
The Government then sought dismissal of the appeal
on the ground of mootness, noting that Mujahid had
“completed his term of imprisonment and was placed on
supervised release.” Id. The Government conceded that
Mujahid, while on supervised release, “remain[ed] in the
custody of the United States[]” for habeas purposes. Id.
The Government contended, however, citing Johnson,
“that Mujahid’s placement on supervised release prevents
[the Ninth Circuit] from providing any relief.” Mujahid,
413 F.3d at 993.

13
The Ninth Circuit “disagree[d].” Id. Citing Johnson,
the Ninth Circuit acknowledged that “a prisoner who
wrongfully served excess prison time is not entitled to
an automatic reduction in his term of release.” Id. at 994.
Nevertheless, the court reasoned, “there ‘is a possibility’
that Mujahid could receive a reduction in his term of
supervised release under 18 U.S.C. § 3583(e)(2).” Id. at
995 (quoting Gunderson v. Hood, 268 F.3d 1149, 1153 (9th
Cir. 2001)). The Ninth Circuit continued:
We addressed this very issue in Gunderson. . . .
[Gundersons’s] sentence included a term of
supervised release. The ‘possibility’ that the
sentencing court would use its discretion to
reduce a term of supervised release under 18
U.S.C. § 3583(e)(2) was enough to prevent the
[Gunderson] petition from being moot.
Id. at 994-95 (quoting Gunderson, 268 F.3d at 1153).
The Ninth Circuit concluded: “Gunderson controls
our mootness inquiry here. There ‘is a possibility’ that
Mujahid could receive a reduction in his term of supervised
release under 18 USC § 3583(e)(2).” Id. at 995. The case,
therefore, was not moot.
In sum, Mujahid held as follows: A federal habeas
case, commenced under section 2241 in the district
of imprisonment, and alleging over-incarceration, is
not mooted by the petitioner’s release from prison to
supervised release. The sentencing court can grant that
petitioner some relief, even after release from prison
-- through Johnson’s open door -- in that the court can
terminate or reduce the petitioner’s term of supervised
release.

14
The Fifth Circuit soon followed the Ninth Circuit. See
Johnson v. Pettiford, 442 F.3d 917, 918 (5th Cir. 2006) (per
curiam) (citing Mujahid and holding that “the possibility
that the district court may alter [the petitioner’s] period of
supervised release . . . if it determines that he has served
excess prison time, prevents [the petitioner’s] petition from
being moot”). (As shown below, however, the Fifth Circuit,
in this case, retreated from this holding.)
Next, the Second Circuit agreed with, and followed,
Mujahid. See Levine v. Apker, 455 F.3d 71, 76-77 (2d Cir.
2006) (citing Mujahid and holding “the fact that the district
court might, because of our ruling, modify the length of
Levine’s supervised release would constitute effectual
relief”) (internal quotation marks omitted).
The Eleventh Circuit then cited and followed the
Ninth, the Fifth and the Second Circuits. See Mitchell
v. Middlebrooks, 287 Fed. App’x 772, 774-75 (11th Cir.
2008). Middlebrooks re-affirmed a pre-Johnson case,
Dawson v. Scott, 50 F.3d 884, 886 n.2 (11th Cir. 1995),
which had announced and applied the same rule: “Because
success for Dawson[,]” released from prison but serving
a term of supervised release, “could alter the supervised
release portion of his sentence, his appeal is not moot.”
Middlebrooks concluded: “Johnson did not . . . alter our
holding in Dawson that an appeal is not moot where a
former prisoner is still serving a term of supervised
release . . . . [I]t is possible he could receive a reduced or
modified term of supervised release from the sentencing
court if he succeeds in this habeas proceeding.” 287 F.
App’x at 775.

15
The District of Columbia Circuit next agreed with
“the logic of” the Ninth Circuit’s decision in Mujahid
and the Second Circuit’s decision in Levine, and
treated “the enhanced prospects for a reduced term of
supervised release under § 3583 as adequate to hold
non-moot a released prisoner’s claim to a lesser period
of incarceration[.]” United States v. Epps, 707 F.3d 337,
345 (D.C. Cir. 2013). The D.C. Circuit noted that this
Court in Johnson “identified relief under § 3583(e)(1)
or (e)(2) as potential means for addressing the injustice
of a prisoner’s being incarcerated beyond the proper
expiration of his prison term.” Id. The court held: “Our
conclusion that Epps is eligible for a reduced sentence
under § 3582(c)(2), if it led to an actual sentence reduction,
would necessarily inform the district court’s evaluation
of a motion for termination or reduction of his term of
supervised release[.]” Id.4
The Seventh Circuit next agreed that release from
prison to a term of supervised release did not moot a
case, commenced under section 2241, alleging overincarceration. See Pope v. Perdue, 889 F.3d 410 (7th Cir.
2018). “Pope can benefit from success on appeal. . . . [A]
finding that Pope spent too much time in prison . . . . would
carry ‘great weight’ in a § 3583(e) motion to reduce Pope’s
term[]” of supervised release. Id. at 414 (quoting Johnson,
529 U.S. at 60). “This is enough[]” to avoid mootness.” Id.
(citing the D.C. Circuit in Epps and the Ninth Circuit in
Mujahid).
4. Epps did not involve a habeas corpus petition under
section 2241. Rather, in Epps, the defendant made a motion in
the sentencing court for a reduction of sentence under 18 U.S.C.
§ 3582(c)(2), which the sentencing court denied.

16
Most recently, the Fourth Circuit agreed, in a case
under section 2255, that release from prison to supervised
release does not moot a case alleging over-incarceration.
In United States v. Ketter, 908 F.3d 61, 65-66 (4th Cir.
2018), the Fourth Circuit held: “[B]ecause of the reciprocal
relationship between a prison sentence and a term of
supervised release, even when a prison term has ceased,
a defendant serving a term of supervised release has a
‘legally cognizable interest in the outcome’ of a challenge to
his sentence. . . . Although the underlying prison sentence
has been served, a case is not moot when an associated
term of supervised release is ongoing, because on remand
a district court could grant relief to the prevailing party
in the form of a shorter period of supervised release.” Id.
Subsequent unpublished Fourth Circuit decisions
have applied Ketter in section 2241 cases. See Williams
v. Wilson, 747 F. App’x 170, 170 n.* (4th Cir. 2019) (citing
Ketter, the Second Circuit’s Levine decision, and Reynolds
v. Thomas, 603 F.3d 1144, 1148 (9th Cir. 2010), which
follows Mujahid); Kornegay v. Warden, 748 F. App’x 513,
514 n.* (4th Cir. 2019) (citing Ketter); but see Palacio v.
Sullivan, 814 F. App’x 774, 775 (4th Cir. 2020) (holding
§ 2241 petition moot).
2.

Five Circuits, By Contrast, Hold That A
Case Is Moot

Other Circuits disagree with the decisions discussed
above. Thus:
The Third Circuit began the Circuit split with Burkey
v. Marberry, 556 F.3d 142 (3rd Cir. 2009). In that case, the
petitioner filed a habeas petition, which “challenged the

17
BOP’s failure to grant him early release[.]” Id. at 144. The
district court held that the petitioner’s release from prison
mooted the case, even though the petitioner remained
on supervised release and could have “argue[d] to the
sentencing court in Ohio that his supervised release term
should be shortened in light of his having been improperly
denied early release from prison.” Id. at 145-46.
The Third Circuit affirmed, explicitly holding that
it was “unwilling” to follow Mujahid and Levine, which,
as the Third Circuit summarized, “found a live case or
controversy where a ‘possibility’ exists that a court would
reduce a term of supervised release in situations similar to
this[.]” Id. at 149-50. The Third Circuit “d[id] not believe
the reasoning of these case[s] is supportable[.]” Id. at 150.
The Third Circuit then announced and applied its
own rule: “[T]he [petitioner’s] injury must be ‘likely’
to be redressed by the [future] judicial decision [by the
sentencing court]. A ‘possibility’ of redress, which is
all that Levine and Mujahid require, is not adequate to
survive a mootness challenge.” Id. That “possibility . . . is so
speculative that any decision on the merits by the District
Court would be merely advisory and not in keeping with
Article III’s restriction of power.” Id. at 149. The Third
Circuit therefore affirmed the mootness dismissal: “The
‘likely’ outcome here is not that the District Court’s order
will cause the sentencing court in Ohio to reduce Burkey’s
term of supervised release.” Id. at 148.
The Sixth Circuit next held a habeas case under section
2241 moot where the petition challenged BOP regulations
prohibiting a transfer to a “community correctional center
(‘CCC’)[,]” but the petitioner, “[w]hile his petition . . . was

18
pending before the district court . . . was transferred to
a CCC.” Demis v. Sniezek, 558 F.3d 508, 510, 512 (6th
Cir. 2009). The Sixth Circuit expressly declined to follow
Mujahid and Levine, “find[ing] the reasoning of [those
decisions] to be too tenuous.” Id. at 514.
The Tenth Circuit later explicitly followed the Third
Circuit’s Burkey decision. See Rhodes v. Judiscak, 676
F.3d 931(10th Cir. 2011). The Tenth Circuit -- through
a panel that included then-Judge Gorsuch -- recognized
that “our sister circuits are split on” the mootness issue,
id. at 934, and “agree[d] with the result suggested by the
Third . . . Circuit[].” Id. at 935. The Tenth Circuit affirmed
the mootness dismissal: “[A]t this point, it is entirely
speculative whether a declaration from this court stating
that Rhodes’ sentence was excessive will aid him in the
future.” Id.
The First Circuit next held a section 2241 case moot
where the BOP released the petitioner after he “overserve[d]” his prison sentence and “began serving his
term of supervised release.” Francis v. Maloney, 798 F.3d
33, 34-35 (1st Cir. 2015). Francis, however, is arguably
distinguishable from the other cases discussed here in
that the petitioner in Francis filed his petition “after he
was released from federal custody[,]” id. at 34, and sought
not a shorter term of supervised release but rather “an
order back-dating his release from confinement[,]” relief
that Francis (correctly) held “foreclosed” by this Court’s
Johnson decision. Id. at 39.
Finally, the Eighth Circuit held, in unpublished
decisions, that release from prison moots a habeas case
commenced under section 2241. See Blakeney v. Huetter,

19
795 Fed. App’x 493, 494 (8th Cir. 2020) (per curiam) (“[T]
his case has become moot because [the petitioner] has
already been released from prison. A ruling that his
early-release date was improperly changed would not
affect his current term of supervised release, nor have we
identified any potential collateral consequences.”); Leiter
v. Nickrenz, 697 Fed. App’x 470, 470 (8th Cir. 2017) (per
curiam) (same).
C.

The Fifth Circuit, In This Case, Retreats To A
Middle Ground

So stood the law, and the Circuit conflict, when the
Fifth Circuit decided this case -- and threw the law into
even greater disarray. Thus:
Herndon was sentenced in the S.D. Fla. The BOP
imprisoned her in the Northern District of Texas, where
she filed this section 2241 case, alleging over-incarceration,
in that the BOP had miscalculated the start-date of her
sentence, and therefore, had miscalculated her release
date. A-2a.
Seventeen months later, however, with her Petition
pending, and with no decision by the district court, the
BOP released Herndon from prison, and she began her
term of supervised release. A-4a. The district court then
dismissed Herndon’s petition as moot. A-15a. Herndon
appealed, asking the Fifth Circuit to reverse in accordance
with Pettiford, 442 F.3d 917, in which the Fifth Circuit
had followed the Ninth Circuit’s Mujahid decision, and
had held that release from prison to supervised release
did not moot a case under section 2241 seeking relief for
over-incarceration. A-6a-7a.

20
The Fifth Circuit, however, did not follow Pettiford
in this case. Thus:
Judge Oldham filed a concurring opinion, which
explicitly recognized that Pettiford “sits at the center
of a circuit split.” A-13a (citing the holdings of the
Third and Tenth Circuits, discussed above, as well as
an unpublished decision from the D.C. Circuit that predated Epps). Judge Oldham continued: “Pettiford . . . held
‘the possibility that the district court may later alter the
[section 2241 petitioner’s] period of supervised release
. . . if it determines that he has served excess prison time,
prevents [the] petition from being moot.’” A-12a (brackets
and internal quotation marks omitted). Characterizing
that “approach to mootness” as inconsistent with Supreme
Court precedent, A-12a, Judge Oldham concluded: “At
some point, we should overrule Johnson v. Pettiford and
follow the Supreme Court’s approach to mootness.” A-14a.
The panel majority, however, did not go that far.
Rather, the majority affirmed the district court’s mootness
dismissal, and did so by giving Pettiford a limited reading.
Specifically, according to the majority, in a holding joined
by Judge Oldham, Pettiford applies only as follows: “[A]
n appeal of a district court’s order is not mooted by a
prisoner’s release from custody so long as that court
has authority to modify an ongoing term of supervised
release.” A-9a. But, “[a]bsent a transfer of jurisdiction
over a prisoner’s term of supervised release . . . only the
sentencing court has authority to modify the terms of a
prisoner’s supervised release. Thus, the Northern District
of Texas -- unlike the sentencing court [the S.D. Fla.] -cannot offer Herndon any further relief.” A-8a.

21
In so holding, and in so limiting Pettiford, the Fifth
Circuit held that habeas relief and mootness under section
2241 turn on a fortuitous occurrence -- the happenstance
that the BOP housed the petitioner in a prison located
within the same judicial district as the sentencing court.
If the BOP did happen to house the prisoner within the
same district as the sentencing court, then the case is not
moot. But if the BOP did not house the prisoner within
the same district as the sentencing court, then the case
is moot.
D.

The Circuit Conflict, As It Currently Stands

In sum, at this time:
Six Circuits (the Ninth, the Second, the Eleventh, the
D.C., the Seventh and the Fourth) hold that release from
prison to a term of supervised release does not moot a
habeas case that alleges over-incarceration (although, as
noted, the D.C. Circuit decision involved a motion under
18 U.S.C. § 3582(c)(2), not a petition under section 2241,
and the Fourth Circuit decision involved a petition under
section 2255, not under section 2241).
Five Circuits (the Third, the Sixth, the Tenth, the
First and the Eighth) hold the opposite (although, as noted,
the First Circuit decision is arguably distinguishable from
the others, and the Eighth Circuit has decided the question
in unpublished decisions).
One Circuit (the Fifth) holds that mootness depends
on whether the BOP housed the petitioner in a prison
located within the same judicial district as the sentencing
court.

22
At least six Circuits, finally, have expressly recognized
the existence of the Circuit conflict at issue here. 5
II. The Circuit Conflict Yields A Stark, Nationwide
Disparity In Access To A Federal Habeas Forum,
Which Adversely Affects Tens Of Thousands Of
Prisoners, Approximately Half Of The Federal
Prison Population.
As shown above, the question presented here
has deeply divided the twelve Circuits that exercise
jurisdiction in habeas corpus cases, all of which have
decided the question presented, or a closely related
question, by precedential decisions (or, in the case of the
Eighth Circuit, by unpublished decisions). Accordingly,
further percolation of the question presented will not
resolve the Circuit conflict or eliminate its inconsistent
impact on the federal prison population.
The importance of the question presented here,
furthermore, lies in its impact on the lives of tens of
thousands of prisoners nationwide, who may -- or may
not -- have a federal habeas forum, depending on where
the BOP houses the prisoner. Thus, as shown below, the
Circuit conflict yields a stark disparity regarding access
to a federal habeas forum.
As to the Circuits in which a case like this is not moot:
The BOP houses approximately 48 percent of the federal
5. Burkey, 556 F.3d at 149-50; Demis, 558 F.3d at 514-15;
Townes v. Jarvis, 577 F.3d 543, 549 n.3 (4th Cir. 2009); Rhodes, 676
F.3d at 934-35; Epps, 707 F.3d at 345; Herndon, A-12a (Oldham,
J., concurring).

23
prison population (66,635 men and women) in prisons
located within those Circuits.6 As to the Circuits in which
a case like this is moot: The BOP houses approximately
29.25 percent of that population (40,128 men and women)
in prisons located within those Circuits.
That substantial disparity in access to a federal habeas
forum (48 percent to 29.25 percent) grows to approximately
50-50 when the Court considers the Fifth Circuit, in which
the BOP houses the remaining approximately 22 percent
of the population (30,699 men and women). In the Fifth
Circuit, as held in this case, mootness depends on whether
the BOP housed the petitioner in a prison located within
the same judicial district as the sentencing court. Publiclyavailable data does not disclose how many prisoners are so
housed but relevant reported decisions provide reason to
conclude that the BOP usually does not house a prisoner
in a prison located within the same judicial district as the
prisoner’s sentencing court.
Thus, for example, this Petition cites 21 relevant cases
in Point I above. In only two of those cases did the BOP
house the prisoner within the district of the sentencing
court.7 In at least ten of those cases, by contrast, including
this case, the BOP housed the prisoner outside the district
of the sentencing court. 8 (Of the remaining nine cases,
6. Federal Bureau of Prisons, Population Statistics (February
24, 2021), https://www.bop.gov/mobile/about/population_statistics.
jsp (listing the population and location of each BOP facility).
7. Levine, 455 F.3d 71; Francis, 798 F.3d 33.
8. Dawson, 50 F.3d 884; Mujahid, 413 F.3d 991; Pettiford,
442 F.3d 917; Middlebrooks, 287 F. App’x 772; Burkey, 556 F.3d
142; Reynolds, 603 F.3d 1144; Epps, 707 F.3d 337; Pope, 889 F.3d

24
eight decisions did not specify the sentencing district, and
one involved a prisoner in state custody.9)
Accordingly, as a practical matter, and subject to
contrary data that the Government may disclose in a
Brief in Opposition to this Petition, the Court should add
substantially all of the Fifth Circuit’s 22 percent of the
federal prison population to the 29.25 percent housed in
the Circuits that hold a case like this moot. The result of
such an addition: a nearly perfect -- or, Herndon submits, a
nearly perfectly unacceptable -- 50-50 disparity in access
to a federal habeas forum.
It is intolerable -- or at least, it should be intolerable
-- that approximately half of the federal prison population
has a federal habeas forum in a case like this, while the
other half of the population (or at least, a percentage
approaching the other half of the population) does not.
Federal law should not vary around the country on a
question as important and recurrent as that presented
here -- whether an over-incarcerated prisoner has a
federal habeas forum that can lead him or her, through the
door left open in Johnson, to a shorter term of supervised
release.
The Court should therefore grant this Petition, which
presents a Circuit conflict on “an important question of
federal law that has not been, but should be, settled by
this Court[.]” S. Ct. Rule 10(c). The Circuit conflict here
yields a stark, nationwide disparity in access to a federal
habeas forum, a disparity that adversely affects as much
410; Williams, 747 F. App’x 170; Herndon, A-8a.
9. Townes, 577 F.3d 543.

25
as half of the prison population. That Circuit conflict is
wide and deep, involving all twelve relevant Circuits.
Further percolation will therefore not resolve the conflict;
only this Court can do so. Accordingly, the Court should
grant this Petition and should settle -- with a holding of
nationally-uniform application -- the question whether a
case like this one is moot.
III. The Court Should Review This Case, And Should
Reverse On The Merits, Because The Fifth Circuit,
And The Other Circuits That Hold A Case Like
This Moot, Mis-Applied Relevant Decisions Of This
Court.
A.

This Case Is Not Moot.

Under this Court’s applicable precedents, this case is
not moot. “[A] case becomes moot only when it is impossible
for a court to grant any effectual relief whatever to the
prevailing party.” Chafin, 568 U.S. at 172. Here, however,
it is by no means “impossible” for a court to grant effectual
relief to Herndon. On the contrary, if she prevails in this
habeas case, a court may terminate or reduce her term
of supervised release, thereby providing relief available
under 18 U.S.C. § 3583(e), as this Court recognized in
Johnson. “That potential benefit keeps [Herndon’s] case
alive.” Pope, 889 F.3d at 415. See Mujahid, 413 F.3d at 995
(holding that “[t]he possibility that the sentencing court
would use its discretion to reduce a term of supervised
release . . . was enough to prevent the petition from being
moot”) (internal quotation marks omitted).

26
B. The Fifth Circuit’s Decision In This Case
Conflicts With Decisions Of This Court And
Establishes Unsound Public Policy.
1.

The Fifth Circuit’s Decision In This Case
Conflicts With This Court’s Decisions In
Chafin And Powell.

The Fifth Circuit’s decision in this case -- holding
this case moot -- conflicts with this Court’s precedents;
in particular, with Chafin, 568 U.S. 165, and Powell v.
McCormack, 395 U.S. 486 (1969). Thus:
The Fifth Circuit held this case moot because the
habeas court, the Northern District of Texas, has no
“authority” to grant the relief that Herndon seeks. A-8a.
Specifically, the Fifth Circuit held, the habeas court has
no such “authority” because “only the sentencing court
[the S.D. Fla.] has authority to modify the terms of a
prisoner’s supervised release.” Id.
In so holding, however, the Fifth Circuit erred by
“confus[ing] mootness with the merits.” Chafin, 568 U.S.
at 174. Thus, in Chafin, the petitioner sought an order for
the “re-return” of a child from Scotland to the United
States. The respondent “argue[d] that the[e] case [wa]s
moot because the District Court lack[ed] the authority to
issue a re-return order either under the [relevant Hague]
Convention or pursuant to its inherent equitable powers.”
Id. The Court rejected the argument, “which goes to the
meaning of the Convention and the legal availability of a
certain kind of relief[,]” and thereby “confuses mootness
with the merits.” Id. See also Powell, 395 U.S. at 500, which
Chafin summarized as follows: “[A] claim for backpay

27
saved the case from mootness, even though . . . the backpay
claim had been brought in the wrong court and therefore
could not result in relief. . . . [T]his argument . . . confuses
mootness with whether [the plaintiff] has established a
right to recover[.]” 568 U.S. at 174 (internal quotation
marks omitted).
Similarly, here, the case is not moot merely because
the habeas court lacks the authority to issue an order
under 18 U.S.C. § 3583(e) affecting Herndon’s term of
supervised release. That lack of authority goes to the
legal availability of a certain kind of relief; it goes to the
question whether Herndon has established a right to
recover. The Fifth Circuit’s holding therefore confuses
mootness with the merits. Herndon’s case may be in the
“wrong” court for a certain kind of relief -- termination
or reduction of her term of supervised release -- but her
“prospects of success are . . . not pertinent to the mootness
inquiry.” Chafin, 568 U.S. at 174.
2.

The Fifth Circuit’s Decision Establishes
Unsound Public Policy.

The Fifth Circuit’s decision in this case establishes
unsound public policy, for the two following reasons.
First, under the Fifth Circuit’s rule, habeas relief
and mootness under section 2241 turn on a fortuitous
occurrence -- the happenstance that the BOP housed the
petitioner in a prison located within the same judicial
district as the sentencing court. The Ninth Circuit and
the Seventh Circuit have rejected precisely such a rule.
See Mujahid, 413 F.3d at 995 (holding that Gunderson, on
which Mujahid relied, “does not state that the petitioner

28
was seeking habeas relief before the same court in
which he was sentenced, and there is no indication
that [Gunderson’s] mootness analysis turned on such a
fortuitous occurrence.”); Pope, 889 F.3d at 415.
Second, the Fifth Circuit’s holding in this case renders
thousands of prisoners categorically ineligible for a habeas
forum in a case like this, because the BOP has no prisons
in 39 of the nation’s 94 federal districts. Men and women
convicted in those 39 districts therefore can never be
housed in a prison located within the sentencing district.
Accordingly, under the Fifth Circuit’s rule, cases like
this brought by prisoners sentenced in those districts
-- in which approximately 22.5 percent of federal prison
sentences were imposed -- can never survive a mootness
challenge.10
C.

The Decisions Of Other Circuits, Holding
Cases Like This Moot, Conflict With Decisions
Of This Court.
1.

The Ci rcuits In Question Rely On
Inapplicable Decisions Of This Court.

The decisions of other Circuits, holding cases like
this moot, are erroneous because those Circuits rely on
an inapplicable line of this Court’s decisions. Specifically,
those Circuits rely on Spencer v. Kemna, 523 U.S. 1 (1998),
and United States v. Juvenile Male, 564 U.S. 932 (2011), to
hold that the habeas petitioner in Herndon’s position can
10. United States Sentencing Commission, 2019 Federal
Sentencing Statistics (April 2020), https://www.ussc.gov/research/
data-reports/geography/2019-federal-sentencing-statistics.

29
stave off mootness only by demonstrating the existence
of “collateral consequences” that rise to a more-thanspeculative level.
Thus, for example, the Third Circuit
in Burkey, relying on Spencer, held that a habeas petitioner
serving a term of supervised release “must demonstrate
that collateral consequences exist;” otherwise, the case
is moot. And, according to Burkey, such a petitioner,
to demonstrate the requisite collateral consequences,
must show the “likelihood that a favorable decision
would redress the injury or wrong. . . . [A] possibility” is
insufficient to satisfy Spencer’s requirements. Burkey,
556 F.3d at 148.
In Rhodes, 676 F.3d at 933-35, the Tenth Circuit,
relying on Burkey and Juvenile Male, reached the same
conclusion, as did the First Circuit in Demis, 558 F.3d at
515-16 (citing Spencer and holding that the petitioner “can
point to no collateral consequences”) (internal quotation
marks omitted).
In reaching those decisions, however, those Circuits
erred. The Spencer/Juvenile Male line of cases does not
apply here; reliance on that line of cases was misplaced.
In Spencer and in Juvenile Male, the petitioners were
no longer in custody at all. Thus, Spencer had served both
his prison sentence and his parole term; see 523 U.S. at
7; the Juvenile Male had turned 21 years of age and had
therefore served his entire term of juvenile supervision;
see 564 U.S. at 937. In such circumstances, the Court
required a showing of collateral consequences to avoid
mootness. See Spencer, 523 U.S. at 7 (“Once the convict’s
sentence has expired . . . some concrete and continuing
injury other than the now-ended incarceration or parole

30
-- some collateral consequence of the conviction -- must
exist if the suit is to be maintained.”) (internal quotation
marks omitted); Juvenile Male, 564 U.S. at 936 (“when
a defendant challenges only an expired sentence . . . the
defendant must bear the burden of identifying some
ongoing collateral consequence . . . that is likely to be
redressed by a favorable judicial decision”) (internal
quotation marks omitted).
Here, by contrast, Herndon remains in custody,
serving her term of supervised release. It is not impossible
for a court to give her relief -- relief authorized by this
Court’s Johnson decision. Accordingly, this case is not
moot, see Pope, 889 F.3d at 414 n.1 (distinguishing Spencer
on this ground), and Herndon need not show collateral
consequences.
2.

The Circuits In Question Incorrectly
Examine The Discretionary Nature Of
The Relief, And The Prospects Of Success,
Which, Under Chafin, Are Not Pertinent
To The Mootness Analysis.

The Third Circuit in Burkey, and the Tenth Circuit in
Rhodes, also held that the relief sought by the petitioners
in those cases -- modification of the term of supervised
release -- was too “speculative” to avoid mootness, because
that relief lies within the “discretion” of the sentencing
court. See Burkey, 556 F.3d at 148-49; Rhodes, 676 F.3d
at 934-35. Those courts so held, however, based on their
antecedent holdings that the Spencer/Juvenile Male line of
cases applies, holdings that, as shown above, were error.
The Spencer/Juvenile Male cases do not apply where, as
here, the petitioner remains in custody, serving a term
of supervised release.

31
Where, as here, the Spencer/Juvenile Male cases do
not apply, the supposed “speculative” or “discretionary”
nature of the relief “[is] not pertinent to the mootness
analysis.” Chafin, 568 U.S. at 174. Thus, in Chafin, the
petitioner sought an order directing the “re-return” of a
child from Scotland to the United States. The respondent
urged mootness on the ground that “Scotland would
simply ignore” such an order. Id. The Court rejected
the contention, holding that “uncertainty” regarding
enforcement of the order in the second forum did not make
the case moot. “Courts often adjudicate disputes where
the practical impact of any decision is not assured.” Id.
at 175.
Chafin applies here a fortiori. If a case seeking a
particular order is not moot where, as in Chafin, a second
forum would ignore that order, then a case seeking a
particular order is not moot where, as here, the second
forum would necessarily weigh the order in the balance
when asked to terminate or reduce the petitioner’s term of
supervised release. See, e.g., Epps, 707 F.3d at 345 (“Our
conclusion . . . would necessarily inform the district court’s
[later] evaluation of a motion for termination or reduction
of [Epps’] term of supervised release[.]”).
The habeas court, in sum, has no warrant to predict
the outcome in the sentencing court, much less to inject
that prediction into the mootness analysis, as the Third and
Tenth Circuits did. See Burkey, 556 F.3d at 148 (holding
that “[t]he likely outcome here is not that the [habeas]
Court’s order will cause the sentencing court . . . to reduce
Berkey’s term of supervised release”); Rhodes, 676 F.3d
at 935 (holding that “it is entirely speculative whether a
declaration from this court stating that Rhodes’ sentence
was excessive will aid him in the future.”)

32
A motion under 18 U.S.C. § 3583(e), asking the
sentencing court to terminate or reduce a term of
supervised release, is a motion addressed to that court’s
discretion. “[A] motion to a court’s discretion is a motion,
not to its inclination, but to its judgment; and its judgment
is to be guided by sound legal principles.” Halo, 136 S. Ct.
at 1932 (internal quotation marks and citation omitted).
Here, sound legal principles w ill obligate the
sentencing court to “consider[] a variety of factors” under
section 3583(e), Rhodes, 676 F.3d at 935. And one of those
factors -- over-incarceration, established in the habeas
case -- “would carry ‘great weight’” in the sentencing
court’s discretionary balance of factors. Pope, 889 F.3d at
414, quoting Johnson, 529 U.S. at 60; see Epps, 707 F.3d
at 344 (holding “that Epps over-served his sentence . . . is
of paramount importance to whether he should continue
under supervised release for [his full term]”). Cf. RosalesMireles v. United States, 138 S. Ct. 1897, 1907 (2018) (“[A]
ny amount of actual jail time is significant[.]”) (internal
quotation marks omitted).
Accordingly, in this case, if the sentencing court does
it job properly, by exercising judgment guided by sound
legal principles -- and, of course, the habeas court must
assume that the sentencing court will do precisely that
-- then it is not “impossible for a court to grant [Herndon]
any effectual relief whatever[.]” Chafin, 568 U.S. at 172.
As some cases put it, mootness turns on whether the
plaintiff or the petitioner retains “a concrete interest,
however small, in the outcome of the litigation.” Knox v.
SEIU, Local 1000, 567 U.S. 298, 307-08 (2012). And here,
Herndon certainly retains an interest in the outcome of
this litigation -- however small (or large) her likelihood of

33
success may be “due to potential difficulties” in a second
forum (here, the sentencing court). Chafin, 568 U.S. at
176. Herndon’s “prospects of success are therefore not
pertinent to the mootness analysis.” Id. at 174.
CONCLUSION
For the foregoing reasons, the Petition for a Writ of
Certiorari should be granted.
Respectfully submitted,
Virginia Chavez Romano
Steven A. Levy
Tripp Odom
A lice Hong
Naari Ha
White & Case LLP
1221 Avenue of the Americas
New York, New York 10020
(212) 819-8200

Kenneth A. Caruso
Counsel of Record
Mukasey Frenchman LLP
Two Grand Central Tower
140 East 45th Street
New York, New York 10017
(212) 466-6400
kenneth.caruso@mfsllp.com

Counsel for Petitioner

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE FIFTH
CIRCUIT, FILED JANUARY 13, 2021
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-11156
DAWN HERNDON,
Petitioner-Appellant,
versus
JODY R. UPTON, WARDEN, FMC CARSWELL,
Respondent-Appellee.
Appeal from the United States District Court
for the Northern District of Texas.
USDC No. 4:18-CV-120.
January 13, 2021, Filed
Before Haynes, Higginson, and Oldham, Circuit Judges.
Stephen A. Higginson, Circuit Judge:
Dawn Herndon appeals the dismissal of her petition
for a writ of habeas corpus pursuant to 28 U.S.C. § 2241.
This is the latest installment in Herndon’s challenge to an
alleged dissonance between the oral pronouncement and

2a
Appendix A
written judgment from her 2013 conviction and sentence
in the Southern District of Florida. The only issue before
us, however, is whether the Northern District of Texas
erred in dismissing as moot her § 2241 petition following
her release from prison. Finding no error, we AFFIRM.
I.
Herndon pleaded guilty in 2012 to five counts of bank
fraud with an agreed loss amount of over $3 million in the
Southern District of Florida. Prior to sentencing, Herndon
was diagnosed with cancer and underwent extensive
medical treatment. On March 25, 2013, she was sentenced
below the advisory guidelines range of 78-97 months to
concurrent terms of 60 months of imprisonment, three
years of supervised release, and $3,008,437 in restitution.
Because Herndon needed additional medical treatment,
the district court agreed to allow her to voluntarily
surrender one year later; during that period, Herndon was
released to home confinement with electronic monitoring.
The district court granted several extensions of Herndon’s
surrender date until March 27, 2015. Ultimately, a warrant
was issued for her arrest and Herndon was taken into
custody on April 6, 2015.
While in prison, Herndon learned that the Bureau of
Prisons (BOP) calculated her sentence from the date she
had entered custody in April 2015, rather than the date she
had been sentenced in March 2013. Consequently, the BOP
calculated her anticipated release date, after accounting
for good-time credit pursuant to 18 U.S.C. § 3624(b), to
be August 13, 2019. In March 2017, Herndon filed an

3a
Appendix A
unsuccessful pro se motion in the Southern District of
Florida asking the district court to amend the judgment
to reflect its oral pronouncement, which she asserted had
awarded her credit against her 60-month sentence for the
time she would spend on home confinement.1
Herndon then filed a pro se 28 U.S.C. § 2255 motion
in the Southern District of Florida, which the district
court dismissed, in relevant part, because any sentencing
credit issue must be raised in a § 2241 petition filed in the
district of Herndon’s incarceration. In denying Herndon’s
subsequent motion for reconsideration, the district court
added:
Having reviewed the transcript, I confirm that
I reduced the period of imprisonment from
the guideline range to a lesser amount based
on the period of future house arrest. In other
words, in fashioning a sentence of 60 months’
imprisonment, I considered her surrender date
and the fact that she would spend approximately
one year on home confinement. 2
In February 2018, Herndon, now represented by
counsel, filed this § 2241 motion in the Northern District
1. The Eleventh Circuit dismissed Herndon’s subsequent appeal
as untimely. United States v. Herndon, 733 F. App’x 1008, 1010 (11th
Cir. 2018).
2. The Eleventh Circuit also declined Herndon’s subsequent
requests for a certificate of appealability as to her § 2255 motion.
Order, United States v. Herndon, No. 17-12597-B (11th Cir. Sept. 20,
2017), reconsideration denied (11th Cir. Nov. 3, 2017).

4a
Appendix A
of Texas. She alleged that the BOP improperly denied her
credit for her time spent on home confinement. Herndon
asserted that her correct release date—calculated from
her March 2013 sentencing date and accounting for goodtime credit—lapsed in December 2017. Alternatively,
she argued that she would exceed even her full 60-month
sentence on March 24, 2018. She petitioned the district
court to grant a writ of habeas corpus and, as her sole
request for relief, to be released from custody.
While her § 2241 petition was pending, the BOP
released Herndon on July 19, 2019. Her three-year
term of supervised release commenced the same day. 3
In September 2019, the Northern District of Texas sua
sponte dismissed Herndon’s petition as moot because she
was no longer incarcerated. Herndon timely appealed.
II.
“Whether an appeal is moot is a jurisdictional matter,
since it implicates the Article III requirement that there
be a live case or controversy.” United States v. HerediaHolguin, 823 F.3d 337, 340 (5th Cir. 2016) (en banc)
(quoting Bailey v. Southerland, 821 F.2d 277, 278 (5th
Cir. 1987)). We review the district court’s determination
of mootness de novo. United States v. Vega, 960 F.3d 669,
672 (5th Cir. 2020).

3. According to the district court, “Herndon is now on
supervised release reporting to the West Palm Beach, Florida
Probation Office.”

5a
Appendix A
III.
It is und isput ed that Her ndon satisf ied the
jurisdictional “in custody” requirement for purposes
of pursuing relief under § 2241 at the time she filed her
petition. See 28 U.S.C. § 2241(c)(3); Maleng v. Cook, 490
U.S. 488, 490-91, 109 S. Ct. 1923, 104 L. Ed. 2d 540 (1989).
However, Herndon must separately satisfy the case-orcontroversy requirement of Article III, Section 2 of the
Constitution. Spencer v. Kemna, 523 U.S. 1, 7, 118 S.
Ct. 978, 140 L. Ed. 2d 43 (1998). Our jurisdiction is thus
constrained to adjudicating “actual, ongoing controversies
between litigants.” Deakins v. Monaghan, 484 U.S. 193,
199, 108 S. Ct. 523, 98 L. Ed. 2d 529 (1988). “In order to
maintain jurisdiction, the court must have before it an
actual case or controversy at all stages of the judicial
proceedings.” Vega, 960 F.3d at 672 (citing Spencer, 523
U.S. at 7). “A case becomes moot only when it is impossible
for a court to grant any effectual relief whatever to the
prevailing party.” Knox v. SEIU, Local 1000, Loc. 1000,
567 U.S. 298, 307, 132 S. Ct. 2277, 183 L. Ed. 2d 281 (2012)
(internal quotation marks and citation omitted).
We agree with the district court that Herndon’s
release mooted her § 2241 petition, notwithstanding
her continued supervision, because there was no longer
a live case or controversy for which any relief could be
granted. Herndon had already received the sole relief
sought in her petition: release from confinement. See
Bailey, 821 F.2d at 278 (dismissing a § 2241 petition as
moot following release where “the thrust of [the] petition

6a
Appendix A
is to be released from his confinement”).4 Herndon’s § 2241
petition did not seek any corresponding modification of her
term of supervised release. Nor would such modification
automatically follow. See United States v. Johnson, 529
U.S. 53, 57-58, 120 S. Ct. 1114, 146 L. Ed. 2d 39 (2000).
Even if Herndon served a longer custodial sentence than
she was supposed to, she is not entitled to “automatic
credit’ as a means of compensation.” United States v.
Jeanes, 150 F.3d 483, 485 (5th Cir. 1998); see also Johnson,
529 U.S. at 58-59 (“Though interrelated, the terms are
not interchangeable.”).
Herndon asserts that her appeal is not moot because
her term of supervised release can still be modified or
terminated by the sentencing court. See 18 U.S.C. §
3583(e). 5 She argues that this case is controlled by our
4. We have reached the same conclusion in recent unpublished
cases. See, e.g., Aldaco v. Nash, 693 F. App’x 336, 337 (5th Cir. 2017)
(per curiam) (unpublished) (§ 2241 petition seeking immediate
release because BOP failed to properly credit petitioner’s sentence
was mooted by his release (citing Bailey, 821 F.2d at 278-79)); United
States v. Boston, 419 F. App’x 505, 506 (5th Cir. 2011) (per curiam)
(unpublished) (“If the only relief sought by an appellant cannot be
granted, the case is moot.”).
5. Section 3583(e) provides, in relevant part:
The court may, after considering the factors set forth
in [18 U.S.C. § 3553]—
(1) terminate a term of supervised release and
discharge the defendant released at any time after
the expiration of one year of supervised release
. . . if it is satisfied that such action is warranted
by the conduct of the defendant released and the
interest of justice; [or]

7a
Appendix A
court’s decision in Johnson v. Pettiford, 442 F.3d 917 (5th
Cir. 2006) (per curiam), and thus not moot.
In Pettiford, the petitioner filed a pro se § 2241
petition challenging the BOP’s determination that he was
ineligible for a sentencing credit following his completion
of a substance abuse treatment program while in custody.
Id. at 917. The petitioner was subsequently released from
prison and began serving a term of supervised release, and
the respondent moved to dismiss the petition as moot. Id.
at 918. The district court dismissed the petition because
the petitioner failed to timely respond in contravention of
the local rules. Id. at 917-18. This court reversed. Id. at
919. In first considering whether the case was moot, we
emphasized that under the Supreme Court’s decision in
Johnson, “a district court may exercise its discretion to
modify an individual’s term of supervised release, taking
into account that an individual has been ‘incarcerated
beyond the proper expiration of his prison term.’” Id. at
918 (quoting Johnson, 529 U.S. at 60). Consequently, we
held “the possibility that the district court may alter [the
petitioner’s] period of supervised release pursuant to 18
U.S.C. § 3582(e)(2), if it determines that he has served
excess prison time, prevents [his] petition from being
moot.” Pettiford, 442 F.3d at 918.

(2) . . . modify, reduce, or enlarge the conditions
of supervised release, at any time prior to the
expiration or termination of the term of supervised
release.

18 U.S.C. § 3583(e)(1)-(2).

8a
Appendix A
The government argues that Pettiford is distinguishable
here because the Northern District of Texas does not
have jurisdiction to modify Herndon’s term of supervised
release. We agree. Absent a transfer of jurisdiction over
a prisoner’s term of supervised release, see 18 U.S.C. §
3605, only the sentencing court has authority to modify
the terms of a prisoner’s supervised release. Thus, the
Northern District of Texas—unlike the sentencing
court—cannot offer Herndon any further relief.
We have reached this same conclusion in unpublished
decisions following Pettiford. For example, in Lawson v.
Berkebile, we held that a pro se § 2241 petition challenging
the BOP’s denial of early release was mooted by the
petitioner’s release from custody. 308 F. App’x 750, 752
(5th Cir. 2009) (per curiam) (unpublished). Distinguishing
Pettiford, we held that even though the petitioner was
still serving a term of supervised release, “the district
court that denied [petitioner’s] § 2241 petition is without
jurisdiction to determine, under 18 U.S.C. § 3583, whether
he served excess prison time; that determination is to be
made by the sentencing court.” Id. at 752. Consequently,
we held that any “pronouncement by this court . . . would
not result in ‘specific relief through a decree of a conclusive
character’ with regard to modification of the sentence.”
Id. (quoting North Carolina v. Rice, 404 U.S. 244, 246, 92
S. Ct. 402, 30 L. Ed. 2d 413 (1971)); see also Purviance v.
Maye, 439 F. App’x 377, 378 (5th Cir. 2011) (per curiam)
(unpublished) (holding that a § 2241 petition was moot
where the petitioner had been released from prison and
the district court lacked jurisdiction to alter his term
of supervised release because it was not the sentencing
court).

9a
Appendix A
More recently, in United States v. Vega, we echoed this
interpretation of Pettiford in concluding that a defendant’s
direct appeal of his sentence was not mooted by his release
from prison. 960 F.3d at 673-74. Even though the defendant
in Vega only challenged his term of imprisonment and
not his supervised release, we emphasized that “[i]f the
district court determined that [the defendant] had been
improperly sentenced, it would ‘have the authority to
modify [the] conditions of supervised release . . . or the
authority to terminate obligations of supervised release.’”
Id. at 673 (quoting United States v. Lares-Meraz, 452 F.3d
352, 355 (5th Cir. 2006)). We cited Pettiford as an example
of this same proposition: the appeal was not moot “because
there remained a ‘possibility that the district court may
alter [his] period of supervised release . . . if it determines
that he has served excess prison time.’” Id. (alteration in
original) (quoting Pettiford, 442 F.3d at 918).
Both Vega and Lawson thus apply Pettiford in the
same way we do here: an appeal of a district court’s order
is not mooted by a prisoner’s release from custody so long
as that court has authority to modify an ongoing term of
supervised release.
To overcome mootness, Herndon attempts to elide the
distinction between the sentencing and habeas courts.
Essentially, she argues that under Pettiford a § 2241
petition is not moot so long as the petitioner’s term of
supervised release may be altered by any district court
with the authority to do so. Herndon reads Pettiford too
broadly. As we have repeatedly held since, Pettiford does

10a
Appendix A
not salvage from mootness a petition that neither this
court nor the district court below has authority to grant.6
Moreover, Herndon’s interpretation is belied by the
remedy she seeks on appeal. Herndon asserts that either
this court or the habeas court “can, after on-the-merits
adjudication of Herndon’s petition, transfer this case” to
the sentencing court in the Southern District of Florida.
Herndon does not elaborate on what our “on-the-merits
adjudication” would produce other than a declaration that
an out-of-circuit sentencing court could consider under its
authority whether to modify Herndon’s term of supervised
release. That we cannot do. See Golden v. Zwickler,
394 U.S. 103, 108, 89 S. Ct. 956, 22 L. Ed. 2d 113 (1969)
(“[F]ederal courts . . . do not render advisory opinions.”
(internal citation and quotation marks omitted)). That
“a favorable decision in this case might serve as a useful
precedent for [Herndon] in a hypothetical lawsuit . . . cannot
save this case from mootness.” United States v. Juvenile
Male, 564 U.S. 932, 937, 131 S. Ct. 2860, 180 L. Ed. 2d 811
(2011).7
6. Herndon also argues that Pettiford is factually analogous to
her case because both involved a sentencing court and a habeas court
in different districts. In Pettiford, the petitioner was sentenced in the
Eastern District of California, but the § 2241 petition was filed in the
district of confinement in the Southern District of Mississippi. However,
neither this distinction nor which of these courts had authority to modify
the petitioner’s supervised release was discussed in Pettiford. In light of
the liberal construction of Pettiford’s pro se petition, and the omission
of any discussion of these facts as bearing on the opinion’s outcome, we
need not presume that the Pettiford court spoke in such absolutes. Our
subsequent cases interpreting Pettiford have similarly declined to do so.
7. We express no opinion as to the merits of Herndon’s
underlying claim.

11a
Appendix A
IV.
For the forgoing reasons, the district court’s
order dismissing Herndon’s § 2241 petition as moot is
AFFIRMED.

12a
Appendix A
A ndrew S. Oldham, Circuit Judge, concurring.
I agree with the majority that this case is moot. I
further agree that Johnson v. Pettiford, 442 F.3d 917 (5th
Cir. 2006) (per curiam), is distinguishable.
I write to emphasize that, in an appropriate case,
our en banc court should overrule Johnson v. Pettiford.
There we held “the possibility that the district court may
alter [the § 2241 petitioner’s] period of supervised release
pursuant to 18 U.S.C. § 3583(e)(2), if it determines that
he has served excess prison time, prevents [the] petition
from being moot.” 442 F.3d at 918 (emphasis added). The
panel did not explain how such a mere possibility could
save a case from mootness.
Nor could it. A s the Supreme Court recently
emphasized, mootness is a function of a party’s requested
relief—not the theoretical possibility that a party could
request or receive something. See N.Y. State Rifle & Pistol
Ass’n v. City of New York, 140 S. Ct. 1525, 1526, 206 L.
Ed. 2d 798 (2020) (per curiam) (holding petitioners’ claims
for declaratory and injunctive relief became moot after
legislative amendments achieved “the precise relief that
petitioners requested in the prayer for relief in their
complaint”); id. at 1533-35 (Alito, J., dissenting) (“[T]his
case is not moot because the amended City ordinance and
new State law do not give petitioners all the . . . relief they
seek.” (emphasis omitted)).
The Supreme Court’s approach to mootness makes
sense because “[o]ur lack of jurisdiction to review moot
cases derives from the requirement of Article III of the
Constitution under which the exercise of judicial power

13a
Appendix A
depends upon the existence of a case or controversy.”
Liner v. Jafco, Inc., 375 U.S. 301, 306 n.3, 84 S. Ct. 391,
11 L. Ed. 2d 347 (1964); accord DeFunis v. Odegaard,
416 U.S. 312, 316, 94 S. Ct. 1704, 40 L. Ed. 2d 164 (1974).
And when it comes to determining the existence of a case
or controversy, we look only to the claims the plaintiff
made; it’s irrelevant that the plaintiff could’ve requested
something else. See Summers v. Earth Island Inst., 555
U.S. 488, 494-95, 129 S. Ct. 1142, 173 L. Ed. 2d 1 (2009).
It’s impossible to reconcile the Supreme Court’s approach
with Johnson v. Pettiford’s decision to rescue a habeas
petition based on the mere possibility of a supervisedrelease modification the petitioner did not request.
Moreover, Johnson v. Pettiford sits at the center of a
circuit split. Compare Rhodes v. Judiscak, 676 F.3d 931,
933-35 (10th Cir. 2012) (expressly disagreeing with our
decision and holding that a released prisoner’s § 2241
petition was moot because “it is entirely speculative
whether a declaration from this court stating that [the
prisoner’s] sentence was excessive will aid him in the
future”), Burkey v. Marberry, 556 F.3d 142, 149 (3d Cir.
2009) (“The possibility that the sentencing court will
use its discretion to modify the length of Burkey’s term
of supervised release under 18 U.S.C. 3583(e) . . . is so
speculative that any decision on the merits by the District
Court would be merely advisory and not in keeping with
Article III’s restriction of power.” (citation and footnote
omitted)), and United States v. Bundy, 391 F. App’x 886,
887 (D.C. Cir. 2010) (per curiam) (same) (quoting Burkey),
with Reynolds v. Thomas, 603 F.3d 1144, 1148 (9th Cir.
2010) (asserting without analysis that a § 2241 allegation of
“over-incarceration” was not moot because a district court
“could consider [the excess prison time] under 18 U.S.C. §

14a
Appendix A
3583(e) as a factor weighing in favor of reducing the term
of supervised release”), abrogated on other grounds by
Setser v. United States, 566 U.S. 231, 132 S. Ct. 1463, 182
L. Ed. 2d 455 (2012).
At some point, we should overrule Johnson v. Pettiford
and follow the Supreme Court’s approach to mootness.

15a
APPENDIX B — Appendix
OPINIONBOF THE UNITED
STATES DISTRICT COURT FOR THE NORTHERN
DISTRICT OF TEXAS, FORT WORTH DIVISION,
DATED SEPTEMBER 25, 2019
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
Civil Action No. 4:18-CV-120-P
DAWN HERNDON,
Petitioner,
v.
JODY UPTON, WARDEN, FMC-FORT WORTH,
Respondent.
ORDER OF DISMISSAL
Dawn Herndon, through counsel, filed in this case
a “Petition for Writ of Habeas Corpus under 28 U.S.C.
§ 2241.” Pet. ECF No. 1. At the time, Herndon was housed
in the Bureau of Prisons FMC-Carswell facility in Fort
Worth, Texas. Pet 1, ECF No. 1. Herndon was then serving
a sentence of imprisonment imposed in the United States
District Court for the Southern District of Florida in
United States v. Herndon, No. 9:12-CR-80172-CR-1. Resp.
App. 15–20, ECF No. 15–1. She asserted under 28 U.S.C.
§ 2241 claims challenging the calculation of her sentence
by the Bureau of Prisons. Pet. 2–4, ECF No. 1. The

16a
Appendix B
Respondent has now filed a document entitled “Notice to
the Court of Petitioner’s Release from Custody” informing
the Court that Herndon was released from the custody
of the Bureau of Prisons on July 19, 2019. Notice Release
1, ECF No. 20. Thus, Herndon is no longer imprisoned.1
Under A rticle III of the Constitution, federal
courts may adjudicate only “actual, ongoing cases or
controversies.” Deakins v. Monaghan, 484 U.S. 193, 199
(1988); Alwan v. Ashcroft, 388 F.3d 507, 511 (5th Cir.
2004). “An actual controversy must be extant at all stages
of review, not merely at the time the complaint is filed.”
Arizonans for Official English v. Arizona, 520 U.S. 43, 67
(1997) (citations omitted). “If a dispute has been resolved
or if it has evanesced because of changed circumstances,
including the passage of time, it is considered moot.” AMA
v. Bowen, 857 F.2d 267, 270 (5th Cir. 1988) (quoting Matter
of S.L.E., Inc. 674 F.2d 359, 364 (5th Cir. 1982)). Where
the question of mootness arises, the Court must resolve it
before it can assume jurisdiction. North Carolina v. Rice,
404 U.S. 244, 246 (1971).
An action is rendered moot “when the court cannot
grant the relief requested by the moving party.” Salgado
v. Federal Bureau of Prisons, 220 F. App’x 256, 2007
WL 627580, at *1 (5th Cir. Feb. 22, 2007) (citing Bailey
v. Southerland, 821 F.2d 277, 278 (5th Cir. 1987) (holding
appeal from denial of § 2241 petition seeking release
from confinement was moot afer Petitioner’s release)).
1. Court staff contact with the Office of the U.S. Marshal
confirms that Herndon is now on supervised release reporting to
the West Palm Beach, Florida Probation Office.

17a
Appendix B
If a controversy is moot, the court lacks subject matter
jurisdiction. Carr v. Saucier, 582 F.2d 14, 15-16 (5th Cir.
1978).
As Petitioner’s is no longer incarcerated her challenges
to her prior detention in this § 2241 petition are moot. See
Ibrahim v. INS, No. 3:02-CV-0770-M, 2003 WL 292172,
*1 (N.D. Tex. Feb. 7, 2003) (release moots habeas petition
challenging legality of extended detention) (citing Riley
v. INS, 310 F.3d 1253, 1257 (10th Cir. 2002)); see also
Alhamdani v. Attorney General, 3:02-CV-2362-P, 2003
WL 21448784, at *1 (N.D. Tex. Apr. 28, 2003) (Petitioner’s
release from custody on Order of Supervision pending
removal renders habeas petition moot); Jackson v.
Atkinson, CA No.8:13-01179-JMC, 2013 WL 5890231, at
*4–5 (D. S.C. Nov. 1, 2013) (expressly dismissing claim
for credit for home detention as moot once Petitioner was
released from confinement in prison).
That Herndon is now serving a term of supervised
release does not change the fact that her challenge to
the calculation of her term of imprisonment is now moot.
See Rhine v. Watkins, No. 3:13-CV-014-D-BH, 2014 WL
1295297, at *2 (N.D. Tex. Mar. 7, 2014) (“the issue of [good
time credits] is moot because she has since been released
from custody, and any lost good-time credits cannot be
used to shorten either her period of supervised release
or her current sentence for violating the conditions of
supervised release”) (citing Bowler v. Ashcroft, 46 F. App’x
731, *1 (5th Cir. July 31, 2002), R and R adopted, 2014
WL 1295490 (N.D. Tex. Mar. 31, 2014) (internal and other
citations omitted); see also Castro-Frias v. Laughlin,

18a
Appendix B
No.5:11-CV-174-DCB-RHW, 2012 WL 4339102, at *2
(S.D. Miss. July 13, 2012) (noting that sentencing credit
“is not applicable to the post-release supervision period
of [a prisoner’s] sentence. As the [United States Supreme]
Court recognized in United States v. Johnson, 529 U.S. 53,
59 (2000), ‘[t]he objectives of supervised release would be
unfulfilled if excess prison time were to offset and reduce
terms of supervised release’”), R and R adopted, 2012 WL
4339216 (S.D. Miss. Sep. 20, 2012).
For all of these reasons, it is ORDERED that Dawn
Herndon’s petition for relief under 28 U.S.C. § 2241 is
DISMISSED as moot.
SO ORDERED on this 25th day of September, 2019.
		
		
		

/s/ Mark T. Pittman
Mark T. Pittman
UNITED STATES DISTRICT JUDGE

19a
Appendix
C
Appendix
C — RELEVANT
STATUTORY PROVISIONS
18 U.S.C. § 3583
§ 3583. Inclusion of a term of supervised release after
imprisonment
(a) In general. The court, in imposing a sentence to a
term of imprisonment for a felony or a misdemeanor, may
include as a part of the sentence a requirement that the
defendant be placed on a term of supervised release after
imprisonment, except that the court shall include as a
part of the sentence a requirement that the defendant be
placed on a term of supervised release if such a term is
required by statute or if the defendant has been convicted
for the first time of a domestic violence crime as defined
in section 3561(b) [18 USCS § 3561(b)].
(b) Authorized terms of supervised release. Except as
otherwise provided, the authorized terms of supervised
release are—
(1) for a Class A or Class B felony, not more than
five years;
(2) for a Class C or Class D felony, not more than
three years; and
(3) for a Class E felony, or for a misdemeanor (other
than a petty offense), not more than one year.
(c) Factors to be considered in including a term of
supervised release. The court, in determining whether

20a
Appendix C
to include a term of supervised release, and, if a term
of supervised release is to be included, in determining
the length of the term and the conditions of supervised
release, shall consider the factors set forth in section
3553(a)(1), (a)(2)(B), (a)(2)(C), (a)(2)(D), (a)(4), (a)(5), (a)(6),
and (a)(7) [18 USCS § 3553(a)(1), (a)(2)(B), (a)(2)(C), (a)(2)
(D), (a)(4), (a)(5), (a)(6), and (a)(7)].
(d) Conditions of supervised release. The court shall
order, as an explicit condition of supervised release, that
the defendant not commit another Federal, State, or local
crime during the term of supervision, that the defendant
make restitution in accordance with sections 3663 and
3663A, or any other statute authorizing a sentence of
restitution, and that the defendant not unlawfully possess
a controlled substance. The court shall order as an explicit
condition of supervised release for a defendant convicted
for the first time of a domestic violence crime as defined
in section 3561(b) [18 USCS § 3561(b)] that the defendant
attend a public, private, or private nonprofit offender
rehabilitation program that has been approved by the
court, in consultation with a State Coalition Against
Domestic Violence or other appropriate experts, if an
approved program is readily available within a 50-mile
radius of the legal residence of the defendant. The court
shall order, as an explicit condition of supervised release
for a person required to register under the Sex Offender
Registration and Notification Act [34 USCS §§ 20901 et
seq.], that the person comply with the requirements of
that Act. The court shall order, as an explicit condition
of supervised release, that the defendant cooperate in
the collection of a DNA sample from the defendant, if

21a
Appendix C
the collection of such a sample is authorized pursuant to
section 3 of the DNA Analysis Backlog Elimination Act
of 2000 [42 USCS § 14135a]. The court shall also order,
as an explicit condition of supervised release, that the
defendant refrain from any unlawful use of a controlled
substance and submit to a drug test within 15 days of
release on supervised release and at least 2 periodic
drug tests thereafter (as determined by the court) for
use of a controlled substance. The condition stated in the
preceding sentence may be ameliorated or suspended by
the court as provided in section 3563(a)(4). The results of a
drug test administered in accordance with the preceding
subsection shall be subject to confirmation only if the
results are positive, the defendant is subject to possible
imprisonment for such failure, and either the defendant
denies the accuracy of such test or there is some other
reason to question the results of the test. A drug test
confirmation shall be a urine drug test confirmed using
gas chromatography/mass spectrometry techniques or
such test as the Director of the Administrative Office
of the United States Courts after consultation with the
Secretary of Health and Human Services may determine
to be of equivalent accuracy. The court shall consider
whether the availability of appropriate substance abuse
treatment programs, or an individual’s current or past
participation in such programs, warrants an exception in
accordance with United States Sentencing Commission
guidelines from the rule of section 3583(g) [18 USCS §
3583(g)] when considering any action against a defendant
who fails a drug test. The court may order, as a further
condition of supervised release, to the extent that such
condition—

22a
Appendix C
(1) is reasonably related to the factors set forth
in section 3553(a)(1), (a)(2)(B), (a)(2)(C), and (a)(2)
(D) [18 USCS § 3553(a)(1), (a)(2)(B), (a)(2)(C), and
(a)(2)(D)];
(2) involves no greater deprivation of liberty than
is reasonably necessary for the purposes set forth
in section 3553(a)(2)(B), (a)(2)(C), and (a)(2)(D) [18
USCS § 3553(a)(2)(B), (a)(2)(C), and (a)(2)(D)]; and
(3) is consistent with any pertinent policy statements
issued by the Sentencing Commission pursuant to
28 U.S.C. 994(a);
any condition set forth as a discretionary condition of
probation in section 3563(b) [18 USCS § 3563(b)] and
any other condition it considers to be appropriate,
provided, however that a condition set forth in
subsection 3563(b)(10) [28 USCS § 3563(b)(10)] shall be
imposed only for a violation of a condition of supervised
release in accordance with section 3583(e)(2) [18 USCS
§ 3583(e)(2)] and only when facilities are available. If
an alien defendant is subject to deportation, the court
may provide, as a condition of supervised release, that
he be deported and remain outside the United States,
and may order that he be delivered to a duly authorized
immigration official for such deportation. The court
may order, as an explicit condition of supervised
release for a person who is a felon and required to
register under the Sex Offender Registration and
Notification Act [34 USCS §§ 20901 et seq.], that the
person submit his person, and any property, house,

23a
Appendix C
residence, vehicle, papers, computer, other electronic
communications or data storage devices or media,
and effects to search at any time, with or without a
warrant, by any law enforcement or probation officer
with reasonable suspicion concerning a violation of a
condition of supervised release or unlawful conduct by
the person, and by any probation officer in the lawful
discharge of the officer’s supervision functions.
(e) Modification of conditions or revocation. The court
may, after considering the factors set forth in section 3553
(a)(1), (a)(2)(B), (a)(2)(C), (a)(2)(D), (a)(4), (a)(5), (a)(6), and
(a)(7) [18 USCS § 3553(a)(1), (a)(2)(B), (a)(2)(C), (a)(2)(D),
(a)(4), (a)(5), (a)(6), and (a)(7)]—
(1) terminate a term of supervised release and
discharge the defendant released at any time after
the expiration of one year of supervised release,
pursuant to the provisions of the Federal Rules of
Criminal Procedure relating to the modification
of probation, if it is satisfied that such action is
warranted by the conduct of the defendant released
and the interest of justice;
(2) extend a term of supervised release if less than
the maximum authorized term was previously
imposed, and may modify, reduce, or enlarge the
conditions of supervised release, at any time prior
to the expiration or termination of the term of
supervised release, pursuant to the provisions of
the Federal Rules of Criminal Procedure relating
to the modification of probation and the provisions

24a
Appendix C
applicable to the initial setting of the terms and
conditions of post-release supervision;
(3) revoke a term of supervised release, and
require the defendant to serve in prison all or
part of the term of supervised release authorized
by statute for the offense that resulted in such
term of supervised release without credit for time
previously served on postrelease supervision, if the
court, pursuant to the Federal Rules of Criminal
Procedure applicable to revocation of probation or
supervised release, finds by a preponderance of the
evidence that the defendant violated a condition of
supervised release, except that a defendant whose
term is revoked under this paragraph may not be
required to serve on any such revocation more than
5 years in prison if the offense that resulted in the
term of supervised release is a class A felony, more
than 3 years in prison if such offense is a class B
felony, more than 2 years in prison if such offense
is a class C or D felony, or more than one year in
any other case; or
(4) order the defendant to remain at his place of
residence during nonworking hours and, if the
court so directs, to have compliance monitored by
telephone or electronic signaling devices, except
that an order under this paragraph may be imposed
only as an alternative to incarceration.
(f) Written statement of conditions. The court shall
direct that the probation officer provide the defendant

25a
Appendix C
with a written statement that sets forth all the conditions
to which the term of supervised release is subject, and
that is sufficiently clear and specific to serve as a guide
for the defendant’s conduct and for such supervision as is
required.
(g) Mandatory revocation for possession of controlled
substance or firearm or for refusal to comply with drug
testing. If the defendant—
(1) possesses a controlled substance in violation of
the condition set forth in subsection (d);
(2) possesses a firearm, as such term is defined in
section 921 of this title [18 USCS § 921], in violation
of Federal law, or otherwise violates a condition of
supervised release prohibiting the defendant from
possessing a firearm;
(3) refuses to comply with drug testing imposed as
a condition of supervised release; or
(4) as a part of drug testing, tests positive for illegal
controlled substances more than 3 times over the
course of 1 year;
the court shall revoke the term of super vised
release and require the defendant to serve a term of
imprisonment not to exceed the maximum term of
imprisonment authorized under subsection (e)(3).
(h) Supervised release following revocation. When a
term of supervised release is revoked and the defendant is

26a
Appendix C
required to serve a term of imprisonment, the court may
include a requirement that the defendant be placed on a
term of supervised release after imprisonment. The length
of such a term of supervised release shall not exceed the
term of supervised release authorized by statute for the
offense that resulted in the original term of supervised
release, less any term of imprisonment that was imposed
upon revocation of supervised release.
(i) Delayed revocation. The power of the court to revoke
a term of supervised release for violation of a condition of
supervised release, and to order the defendant to serve
a term of imprisonment and, subject to the limitations
in subsection (h), a further term of supervised release,
extends beyond the expiration of the term of supervised
release for any period reasonably necessary for the
adjudication of matters arising before its expiration if,
before its expiration, a warrant or summons has been
issued on the basis of an allegation of such a violation.
(j) Supervised release terms for terrorism predicates.
Notwithstanding subsection (b), the authorized term
of supervised release for any offense listed in section
2332b(g)(5)(B) [18 USCS § 2332b(g)(5)(B)] is any term of
years or life.
(k) Notwithstanding subsection (b), the authorized term
of supervised release for any offense under section 1201
[18 USCS § 1201] involving a minor victim, and for any
offense under section 1591, 1594(c), 2241, 2242, 2243, 2244,
2245, 2250, 2251, 2251A, 2252, 2252A, 2260, 2421, 2422,
2423, or 2425 [18 USCS § 1591, 1594(c), 2241, 2242, 2244(a)

27a
Appendix C
(1), 2244(a)(2), 2251, 2251A, 2252, 2252A, 2260, 2421, 2422,
2423, or 2425], is any term of years not less than 5, or life.
If a defendant required to register under the Sex Offender
Registration and Notification Act commits any criminal
offense under chapter 109A, 110, or 117, or section 1201 or
1591 [18 USCS §§ 2241 et seq., 2251 et seq., 2421 et seq.,
1201, or 1591], for which imprisonment for a term longer
than 1 year can be imposed, the court shall revoke the
term of supervised release and require the defendant
to serve a term of imprisonment under subsection (e)(3)
without regard to the exception contained therein. Such
term shall be not less than 5 years.

28a
Appendix C
28 U.S.C. § 2241
§ 2241. Power to grant writ
(a) Writs of habeas corpus may be granted by the Supreme
Court, any justice thereof, the district courts and any
circuit judge within their respective jurisdictions. The
order of a circuit judge shall be entered in the records
of the district court of the district wherein the restraint
complained of is had.
(b) The Supreme Court, any justice thereof, and any
circuit judge may decline to entertain an application for
a writ of habeas corpus and may transfer the application
for hearing and determination to the district court having
jurisdiction to entertain it.
(c) The writ of habeas corpus shall not extend to a prisoner
unless—
(1) He is in custody under or by color of the
authority of the United States or is committed for
trial before some court thereof; or
(2) He is in custody for an act done or omitted
in pursuance of an Act of Congress, or an order,
process, judgment or decree of a court or judge of
the United States; or
(3) He is in custody in violation of the Constitution
or laws or treaties of the United States; or

29a
Appendix C
(4) He, being a citizen of a foreign state and
domiciled therein is in custody for an act done or
omitted under any alleged right, title, authority,
privilege, protection, or exemption claimed under
the commission, order or sanction of any foreign
state, or under color thereof, the validity and effect
of which depend upon the law of nations; or
(5) It is necessary to bring him into court to testify
or for trial.
(d) Where an application for a writ of habeas corpus is
made by a person in custody under the judgment and
sentence of a State court of a State which contains two
or more Federal judicial districts, the application may
be filed in the district court for the district wherein such
person is in custody or in the district court for the district
within which the State court was held which convicted and
sentenced him and each of such district courts shall have
concurrent jurisdiction to entertain the application. The
district court for the district wherein such an application
is filed in the exercise of its discretion and in furtherance
of justice may transfer the application to the other district
court for hearing and determination.
(e)
(1) No court, justice, or judge shall have jurisdiction
to hear or consider an application for a writ of habeas
corpus filed by or on behalf of an alien detained by the
United States who has been determined by the United
States to have been properly detained as an enemy
combatant or is awaiting such determination.

30a
Appendix C
(2) Except as provided in paragraphs (2) and (3) of
section 1005(e) of the Detainee Treatment Act of
2005 (10 U.S.C. 801 note), no court, justice, or judge
shall have jurisdiction to hear or consider any other
action against the United States or its agents relating
to any aspect of the detention, transfer, treatment,
trial, or conditions of confinement of an alien who is
or was detained by the United States and has been
determined by the United States to have been properly
detained as an enemy combatant or is awaiting such
determination.

